0

BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of the Alabama
Captive Insurance Association, Inc., Arizona Captive
Insurance Association, Inc., Captive Insurance
Companies Association, Inc., Connecticut Captive
Insurance Association, Delaware Captive Insurance
Association, Inc., Captive Insurance Council of the
District of Columbia, Inc. , Georgia Captive Insurance
Association, Inc., Hawaii Captive Insurance Council
Corporation, Kentucky Captive Association, Inc.,
Missouri Captive Insurance Association, Montana
Captive Insurance Association, Inc., Nevada Captive
Insurance Council, Captive Insurance Group of New
Jersey, North Carolina Captive Insurance Association,
Oklahoma Captive Insurance Association, Puerto Rico
International Insurers Association, Self-Insurance
Institute of America, Inc., South Carolina Captive
Insurance Association, Inc., Tennessee Captive
Insurance Association, Inc., Texas Captive Insurance
Association, Utah Captive Insurance Association, U.S.
Virgin Islands Captive Insurance Association, and
Vermont Captive Insurance Association as Amici
Curiae in Support of Petitioner in 19-930, CIC
Services, LLC v. Internal Revenue Service, et al., were
sent via Two Day Service to the U.S. Supreme Court,
and 3 copies were sent via Two Day Service and e-mail
to the following parties listed below, this 22nd day of
July, 2020:

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

1300 I Street, NW, Suite 400E
Washington , DC 20005

Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
patrick@consov oymccarthy.com
Counsel for Petitioner
Jeffrey B. Wall
Acting Solicitor General
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBrief s@USDOJ.gov
Counsel for Respondents

K. Scott Hamilton
Counsel of Record
Kevin Doherty
Tony Greer
DICKINSON WRIGHT PLLC
500 Woodward Avenue
Suite 4000
Detroit, MI 48226
(313) 223-3500
KHamilton@dickinson-wright.com
William Young Webb
Of Counsel
WEBB & MORTON, PLLC
910 N. Sandhills Boulevard
Aberdeen, NC 28315
(910) 944-9555
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 22, 2020.

'()
DonnaJ. W~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 20.23

\

